Credit Card Agreement for Capital One Walmart Rewards® Cards in Capital One, N.A.
There are two parts to this Credit Card Agreement: Capital One Pricing Information and the Capital One Customer
Agreement. The Pricing Information shows a range of terms that includes both mail and online offers for new accounts
available under this Agreement as of June 30, 2021. The combination of terms that could apply to you will differ depending on
the specific card offer and on your creditworthiness at the time of application. Not all offers will contain introductory rates. The
Customer Agreement contains important information related to consumer credit cards issued by Capital One, N.A. Please
visit www.capitalone.com to view our online credit card offers. If you are a current Capital One cardholder, please log in to your
account if you would like to request the Credit Card Agreement for your account(s).
Annual Percentage Rate
Annual Percentage Rate
(APR) for Purchases and
Quick Cash

17.99% - 26.99%.

APR for Transfers

17.99% - 26.99%.
This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

APR for Cash Advances 26.99%.
This APR will vary with the market based on the Prime Rate.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest
on new purchases, provided you have paid your previous balance in full by the due date each
month. We will begin charging interest on cash advances and transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Transfer

None.
3% of the amount of each transferred balance that posts to your account at a promotional APR
that we may offer you.
None for balances transferred at the Transfer APR.

• Cash Advance

Either $10 or 3% of the amount of each cash advance, whichever is greater.

Penalty Fees
• Late Payment

Up to $39.

How Do You Calculate My Balance? We use a method called “average daily balance (including new transactions).” See
“How Do You Calculate The Interest Charge?” section below.
What Are My Billing Rights? Information on your rights to dispute transactions and how to exercise those rights is provided
in “Your Billing Rights Summary” on your Statement and other Truth-in-Lending Disclosures.
THINGS YOU SHOULD KNOW ABOUT THIS CARD
How Do You Calculate My Variable Rates? Your variable rates may change when the Prime Rate changes. We calculate
variable rates by adding a percentage to the Prime Rate published in The Wall Street Journal on the 25th day of December,
March, June and September. If the Journal is not published on that day, then see the immediately preceding edition. Variable
rates on the following segment(s) will be updated quarterly and will take effect on the first day of your January, April, July and
October billing periods: Purchase and Quick Cash APR: Prime plus 14.74% - 23.74%; Transfer APR: Prime plus 14.74% 23.74%; Cash Advance APR: Prime plus 23.74%. Any increase in the Prime Rate may increase your Interest Charges and
your Minimum Payment.
What Are The Daily Periodic Rates Used To Calculate My Interest? The daily periodic rate for your Purchase and Quick
Cash APR is 0.04929% - 0.07395%, Transfer APR is 0.04929% - 0.07395%, and Cash Advance APR is 0.07395%. See “How
Do You Calculate The Interest Charge?” section below.
How Do You Calculate The Interest Charge? We use a method called Average Daily Balance (including new transactions).
Under this method, we first calculate your daily balance; for each segment, 1) take the beginning balance and add in new
transactions and the periodic interest charge on the previous day’s balance, then 2) subtract any payments and credits for that
segment as of that day. The result is the daily balance for each segment. However, if you paid your previous month’s balance
in full (or if your balance was zero or a credit amount), new transactions which post to your purchase or special purchase
segments are not added to the daily balances. Also, transactions subject to a grace period are not added to the daily balances.
Next, to find your Average Daily Balance: 1) add the daily balances together for each segment, and 2) divide the sum by the
number of days in the billing cycle.
At the end of each billing cycle, we determine your Interest Charge as follows: 1) multiply your Average Daily Balance by the
daily periodic rate (APR divided by 365) for that segment, and 2) multiply the result by the number of days in the billing period.
NOTE: Due to rounding or a minimum interest charge, this calculation may vary from the interest charge actually assessed.
© 2021 Capital One. Capital One is a federally registered service mark. All rights reserved. Products and services offered by
Capital One, N.A. Capital One supports information privacy protection: see our website at www.capitalone.com.

Capital One® Customer Agreement
Welcome to Capital One

Credit Limits

Thank you for opening a credit card account with us.
This Customer Agreement, including any changes to it
(“Agreement”), contains the terms of your agreement
with Capital One.

When you open your Account, we will tell you your credit
limits. These will also appear on your Statement. We may
also refer to your credit limits as your credit lines. We
may give you different credit limits for different types of
transactions or for the different Segments of your Account.

Definitions

You are responsible for keeping track of your Segment
balances and your available credit. You must manage
your Account to remain below your credit limits. We may
honor transactions above your credit limits, but if we do
these transactions will not increase your credit limit. You
are responsible for paying for any transaction you make
above your credit limits.

The meanings of the terms you see in italics appear in
the Glossary section at the end of this Agreement.
As used here, “you” and “your” mean each applicant
and co-applicant for the Account; any person responsible
for paying the Account; and any person responsible for
complying with this Agreement. “We,” “us,” “our,” and
“Capital One” mean Capital One, National Association;
and its agents, authorized representatives, successors,
and assignees.

We may also increase, decrease, restrict or cancel your
credit limit on any Segment at any time. This will not
affect your obligation to pay us.

Account Documents

Using Your Account

The following documents govern your Account with us:

(1) This Agreement applies whether or not you use your
Card or Account. It will continue to apply even after
your Account is closed, as long as you have a balance.
(2) You must sign the Card immediately when you
receive it.
(3) You must return the Card to us or destroy it if we ask
you to.
(4) You must take reasonable steps to prevent the
unauthorized use of your Card, Access Checks
and Account.
(5) We may decline to authorize a transaction for any
reason. This may occur even if the transaction would
not cause you to go over your credit limit or your
Account is not in default.
(6) We are not responsible for any losses you incur if we
do not authorize a transaction.
(7) We are not responsible for any losses you incur if
anyone refuses to accept your Card for any reason.
(8) Unless we tell you otherwise, we will bill each
transaction to the applicable Segment of your
Account. We will apply it against your available credit
for that Segment.
(9) You may obtain Quick Cash at participating Walmart­
owned registers as permitted for your Account.
(10) You must not use, or try to use, the Card for any
illegal activity. You are responsible for any charges
if you do.
(11) We are not liable for any losses that may result
when our services are unavailable due to reasons
beyond our control.
(12) You may use your Account for purchases anywhere
Mastercard is accepted, and you may obtain Cash
Advances and Transfers as permitted for your
Account. You may not use these to pay any
amount you owe us or any other company in
the Capital One organization.

(1) this Agreement;
(2) all Statements;
(3) any rewards program terms, conditions, and disclosures;
(4) any privacy notices;
(5) your Card benefits brochure which describes
benefits provided by the Payment Card Network for
your Account;
(6) all disclosures and materials provided to you before
or when you opened your Account;
(7) any other documents and disclosures relating to your
Account, including those provided online; and
(8) any future changes we make to any of the above.
Please read these carefully and keep them for
future reference.

New Offers
In the future, we may provide you with new offers that we
think may interest you. The terms of these offers may differ
from the standard terms on your Account. This Agreement
will still apply.

Account Information
We need information about you to manage your
Account. This includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address
(if different);
(3) your date of birth;
(4) your Social Security number or other government
identification number;
(5) your telephone number(s); and
(6) your employment and income information.
You must tell us when this information changes. We may
ask you for additional documents to verify any changes.
We may restrict or close your Account if we cannot verify
your information, or if you do not provide it as requested.
1

Rewards

Your Promise to Pay

Your Account may provide you with the opportunity to
earn rewards. If it does, we will separately provide you
with information and terms about the rewards.

You promise to pay us all amounts due on your Account.
This includes amounts where you did not sign a purchase
slip or other documents for the transaction. We will treat
transactions made without presenting your actual Card
(such as for mail, telephone, Internet, or mobile device
purchases) the same as if you used the Card in person. If
you let someone else use your Card, you are responsible
for all transactions that person makes.

Promotional Credit Plans
From time to time, we may offer one or more
promotional Segments prior to or at the time of your
purchase. Only certain purchases may be eligible for
promotional Segments. These offers may have special
repayment terms and are conditioned on your timely
payment of at least the requirement payment amount
each Billing Cycle.

Statements
We will generally send or make available to you one
Statement for all Cards on your Account at the end of
each Billing Cycle. Under certain circumstances, the law
may not require us to send or make available to you a
Statement, or may prohibit us from doing so.

1. Waived Interest Charge - With this offer there are
no Interest Charges on your purchases for a
specified period.
2. Reduced Rate - With this offer, you will receive a
reduced Annual Percentage Rate (APR) on your
purchase for a specified period.

Disputed Transactions
You must inspect each Statement you receive. Tell us
about any errors or questions you have, as described
in the “Billing Rights Summary” on your Statement and
other Truth-in-Lending Disclosures. If you do not notify
us of an error, we will assume that all information on the
Statement is correct.

Using a PIN
We may give you a personal identification number (PIN).
For security reasons, you may have to provide the PIN
before you are able to use your Card.

If we credit your Account for all or part of a disputed
transaction, you give us all of your rights against others
regarding that transaction. You will also:

Keep your PIN secure. Do not write it down, give it
to anyone, or keep it with your Card. If you lose your
Card or believe the confidentiality of your PIN has
been compromised for any reason, you must contact
Customer Service immediately.

(1) give us any information about the disputed
transaction, if we ask;
(2) not pursue any claim or reimbursement of the
transaction amount from the merchant or any other
person; and
(3) help us get reimbursement from others.

Authorized Users
If you ask us to issue a Card to any other person,
they are an Authorized User. We may require certain
information about them. We may limit their ability to use
your Card. They may have access to certain information
about your Account. You will be responsible for their use
of the Account and anyone else they allow to use your
Account, even if you did not want, or agree to, that use.

No Warranties
We are not responsible for any claim you may have
regarding the purchase of goods or services made with
your Card beyond your rights described in the “Billing
Rights Summary” on your Statement.

Removing an Authorized User

Lost or Stolen Card

If you want to remove an Authorized User from your
Account, you must contact Customer Service and
request their removal. You also must immediately
destroy all Cards in their possession and cancel any
arrangements they may have set up on your Account.
They will be able to use your Account until you have
notified us that you are removing them from your
Account. During this time, you will still be responsible
for all amounts they charge to your Account. You will be
responsible even if these amounts do not appear on your
Account until later.

If your Card is lost or stolen or if you think someone else
may be using your Card or Account number without
your permission, you must contact Customer Service
immediately. You will not be responsible for transactions
on your Account that we find are unauthorized.
If we reimburse you for unauthorized transactions, you will
help us investigate, pursue and get reimbursement from
the wrongdoer. Your help includes giving us documents in
a form that we request.

Interest Charges and Fees

Authorized Users may remove themselves from your
Account upon request. We reserve the right to remove
them from your Account for any reason. To remove them
from your Account, we may close your existing Account
and issue a new Card with a new Account number.

We will charge Interest Charges and Fees to your Account
as disclosed on your Statement and other Truth-InLending Disclosures. In general, Interest Charges begin
to accrue on any unpaid amount from the date of the
transaction, date the transaction is processed or the first
2

day of the Billing Cycle. However, we will not charge you
interest on any new transactions posted to the purchase
Segment of your Account if you pay your “New Balance”
in full by the due date on your Statement each month. If
you did not pay your “New Balance” in full when due for
a Billing Cycle, interest will continue to accrue between
the time that we calculate your “New Balance,” as
reflected on your Statement, and when we receive your
payment. This interest will post on your next Statement.
That is why if you start accruing Interest Charges, you
generally must pay your “New Balance” in full for two
consecutive Billing Cycles before Interest Charges stop
posting to your Statement. Please note, however, that
Interest Charges will begin accruing immediately for any
Cash Advances and other transactions that do not post
to the purchase Segment. From time to time, we may
provide you offers that allow you to pay less than the
“New Balance” in full and avoid Interest Charges on new
purchase Segment transactions. If we do, we will provide
details in the specific offer.

In addition to the minimum payment, you may pay
all or part of the total balance on your Account. But,
you must still pay at least the minimum payment
amount each month, even if you paid more than the
minimum payment due on the previous Statement. We
will continue to charge Interest Charges during Billing
Cycles when you carry a balance regardless of whether
your Statement includes a minimum payment that is
due. If your Account is 180 days past due, is part of a
bankruptcy proceeding or is otherwise charged off, the
total balance is immediately due and payable.

Making Payments
Your payment must be made in U.S. dollars from a U.S.
deposit account in a form acceptable to us. We do not
accept cash payments through the mail. You may not
make payments with funds from your Account or any other
credit account with us or any other company in the Capital
One organization. You must send mailed payments to us as
instructed on your Statement, unless we tell you otherwise.

We will generally treat Fees as purchase transactions
unless otherwise specified below. These Fees apply to
your Account only if your Truth-in-Lending Disclosures
provide for them. We may increase your Interest Charges
and Fees as described in the Changes to Your Agreement
section or in your Truth-in-Lending Disclosures.

Other Payment Services

Membership Fee

We are not responsible if your financial institution rejects
a payment made using our payment services.

We may make services available that allow you to make
faster or recurring payments online or by telephone. We
will describe the terms for using these services and any
applicable Fee before you use them. You do not have to
use these other payment services.

If your Account has a membership Fee, we may charge
the first membership Fee either on the day you activate
your Card or on the day when you use your Account,
whichever occurs first. If your Account terms include a
$0 introductory Fee, we may charge the first Fee when
the introductory period ends. If it is an annual Fee, we
may then charge it approximately once per year. If it is a
monthly Fee, we may charge it each Billing Cycle.

If you ask someone else to make a payment for you, we
may provide that person with limited Account information
necessary to set up and process that payment. We may
also refuse to accept that payment. If we do accept
it, you will be responsible for that payment even if a
financial institution rejects it.

Payment Processing

Late Payment Fee

We may accept and process payments without losing
any of our rights. We may delay the availability of
credit until we confirm that your payment has cleared.
This may happen even if we credit your payment to
your Account. We may resubmit and collect returned
payments electronically. If necessary, we may adjust
your Account to correct errors, process returned and
reversed payments, and handle similar issues.

We may charge you this Fee if we do not receive
your payment as instructed on your Statement by the
payment due date.

Returned Payment Fee
We may charge you this Fee each time your financial
institution for any reason rejects a payment you make
to us.

When you send us an Item as payment, you authorize
us to make a one-time electronic fund transfer from
your deposit account. You also authorize us to process
the payment as an Item. We may withdraw the funds
from your deposit account as early as the same day
we receive your payment. You will not receive your
Item back from your bank. We will provide additional
information about this process on your Statement.

Minimum Payment
You must pay us at least the minimum payment amount
by the payment due date. Your Statement will tell you:
(1) the minimum payment due,
(2) your new balance,
(3) the payment due date, and
(4) an explanation of when the payment must reach us
for us to consider it received as of that date.

We may use the information from an Item to create an
electronic image. We may collect and return the image
electronically. This electronic image may also be converted
to a substitute check and may be processed in the same

Returns and other credits to your Account will reduce
your Account balance, but they will not change your
minimum payment amount.
3

way we would process an Item. We will not be responsible
if an Item you provide has physical features that when
imaged result in it not being processed as you intended.

(7) you do not comply with any term of this Agreement
or any other agreement with us; or
(8) you permanently reside outside the United States.

How We Apply Your Payments

If you are in default, we may take certain actions with
respect to your Account. For example, depending on the
default, we may take the following actions, without notifying
you, unless the law says that we must give you notice:

Your Account may have Segments with different Annual
Percentage Rates (APR). For example, purchases
(including Quick Cash) may have a lower APR than
Cash Advances. If your Account has Segment balances
with different APRs, here is how we apply payments in a
Billing Cycle:

(1) charge you Fees, or change the APRs and Fees on
your Account, if provided in your Truth-in-Lending
Disclosures;
(2) close or suspend your Account;
(3) lower your credit limit(s);
(4) demand that you immediately pay the total balance
owing on your Account;
(5) continue to charge you Interest Charges and Fees as
long as your balance remains outstanding; and/or
(6) file a lawsuit against you, or pursue another action that
is not prohibited by law. If we file a lawsuit, you agree to
pay our court costs, expenses and attorney fees, unless
the law does not allow us to collect these amounts.

(1) We generally apply credits and payments up to your
minimum payment first to the balance with the lowest
APR, and then to balances with higher APRs.
(2) We apply any part of your payment exceeding your
minimum payment to the balance with the highest
APR, and then to balances with lower APRs.

Items with Restrictive Words, Conditions,
or Instructions
You must mail all Items bearing restrictive words,
conditions, limitations, or special instructions to:

Communications

Capital One
PO Box 1330
Charlotte, NC 28201-1330

You agree that we may communicate with you by mail,
telephone, email, fax, prerecorded message, automated
voice, text message or other means allowed by law
regarding your Account.

This includes Items marked “Paid in Full” or similar
language. This also includes all accompanying
communications.

You agree that we may contact you at any telephone
number (including a mobile telephone number that
you provide us), and use an automated telephone
dialing system or similar device to do so. You agree that
we may monitor or record any conversation or other
communication with you.

If you make such a payment or send any accompanying
communications to any other address, we may reject it
and return it to you. We may also accept it and process
it without losing any of our rights.
We may reject and return any payment that creates or
adds to a credit balance on your Account. Any credit
balance we allow will not be available until we confirm
that your payment has cleared. We may reduce the
amount of any credit balance by any new charges. You
may write to the address provided on your Statement
or call Customer Service to request a refund of any
available credit balance.

Some of our communications, including this Agreement,
are available in both English and Spanish. You will be
given the opportunity to select which of these language
you would prefer for future communications. Capital One
reserves the right to send communications in English.
Some online services and other important communications
about your Account may only be available in English. You
should review all communications we send to you in both
languages, as they may contain important information
about your Account.

Account Default

Credit Reports

Credit Balances

You will be in default if:

We may report information about your Account to credit
bureaus and others. Late payments, missed payments, or
other defaults on your Account may be reflected in your
credit report. Information we provide may appear on your
and the Authorized Users’ credit reports.

(1) you do not make any payment when it is due;
(2) any payment you make is rejected, not paid or
cannot be processed;
(3) you exceed a credit limit;
(4) you file or become the subject of a bankruptcy or
insolvency proceeding;
(5) you are unable or unwilling to repay your obligations,
including upon death or legally declared incapacity;
(6) we determine that you made a false, incomplete or
misleading statement to us, or you otherwise tried to
defraud us;

If you believe that we have reported inaccurate information
about your Account to a credit bureau or other consumer
reporting agency, notify us in writing at PO Box 30281,
Salt Lake City, UT 84130-0281. When you write, tell us the
specific information that you believe is incorrect and why
you believe it is incorrect.
4

Access Checks

We may obtain and use credit, income and other
information about you from credit bureaus and others as
the law allows.

We may provide you with Access Checks. If we do, we
will tell you at the time if we consider them purchases,
Cash Advances or Special Transfers.

Closing or Suspending Your Account

Only the person we designate may use Access Checks.
You may not use them to pay any amount you owe us or
any other company in the Capital One organization. We
may reject and not pay any Access Check if:

You may contact Customer Service to ask us to close
your Account.
We may close or suspend your Account at any time
and for any reason permitted by law, even if you are
not in default.

(1) your Account is past due, charged off, bankrupt,
lost/stolen or closed;
(2) we suspect fraud;
(3) your Account is over the credit limit; or
(4) the check has expired, is damaged or cannot
otherwise be processed.

If we close or suspend your Account for any reason,
you must stop using your Card. You must also cancel all
billing arrangements set up on the Account. If we close
or permanently suspend your Account, you must return
or destroy all Cards. You must still pay us all amounts
you owe on the Account.

Our liability if we do not pay an Access Check will never
be more than (1) your actual damages or (2) the amount
of the Access Check, whichever is less.

Changes to Your Agreement
At any time, we may add, delete or change any term of
this Agreement, unless the law prohibits us from doing
so. We will give you notice of any changes as required
by law. We may notify you of changes on your Statement
or in a separate notice. Our notice will tell you when and
how the changes will take effect. The notice will describe
any rights you have in connection with the changes.

Use of an Access Check is not the same as using your
Card. When you use an Access Check, you will have
fewer rights to dispute merchant transactions than
with uses of your Card. Please see the “Billing Rights
Summary” on your Statement and your other Truth-inLending Disclosures for more information.

Stopping Payment of Access Checks

Your variable APRs (if applicable) can go up or down as the
index for the rate goes up or down. If we increase your APRs
for any other reason, or if we change your Fees or other
terms of your Account, we will notify you as required by law.

You may request a stop payment on any Access Check
by contacting Customer Service.
We will have a reasonable amount of time after your
stop payment request to research and complete the
stop payment. We will not be responsible if we cannot
complete the stop payment. Reasons include:

The Law That Applies to Your Agreement
We make decisions to grant credit and issue you a Card
from our offices in Virginia. This Agreement is governed
by applicable federal law and by Virginia law. If any part
of this Agreement is unenforceable, the remaining parts
will remain in effect.

(1) the Access Check was already paid;
(2) you do not give us the information we asked for; or
(3) the information you gave us was incorrect.

Waiver

We do not have to release the stop payment order unless
the account holder who made the request asks us to.
If we re-credit your Account after a valid stop payment
order, you give us all of your rights against the payee or
other holder of the paid Access Check. You also agree to
help us in any legal action we may later take against the
payee or other holder of the check.

We will not lose any of our rights if we delay or choose
not to take any action for any reason. We may waive our
right without notifying you. For example, we may waive
your Interest Charges or Fees without notifying you and
without losing our right to charge them in the future.

Assignment

Stop Payment Fee

This Agreement will be binding on, and benefit, any of
your and our successors and assigns. You may not sell,
assign or transfer your Account or this Agreement to
someone else without our written permission.

We may charge you this Fee each time you ask us to
(1) stop payment on an Access Check or (2) renew an
existing stop payment order.

Cash Advance Fee

We may sell, assign or transfer your Account and this
Agreement without your permission and without prior
notice to you. Any assignee or assignees will take our
place under this Agreement. You must pay them and
perform all of your obligations to them and not us. If you
pay us after we notify you that we have transferred your
Account or this Agreement, we can return the payment
to you, forward the payment to the assignee, or handle it
in another way that is reasonable.

We may charge you this Fee each time you take out a
Cash Advance. We will treat this Fee as a Cash Advance
transaction.

Transfer Fee
We may charge you this Fee each time you make a
Transfer. We will charge the Fee to the same Segment
where we post the Transfer.
5

Transactions Made in Foreign Currencies

•“Interest Charges” means any charges to your Account
based on the application of Annual Percentage Rates.

If you make a transaction in a foreign currency, the
Payment Card Network will convert it into a U.S. dollar
amount. The Payment Card Network will use its own
currency conversion procedures. The conversion rate
in effect on the processing date may differ from the rate
in effect on the transaction date that appears on your
Statement. We do not adjust the currency exchange rate
or charge any currency conversion Fees.

•“Item” means a check, draft, money order or other
negotiable instrument you use to pay your Account. This
includes any image of these instruments. This does not
include an Access Check.
•“Payment Card Network” means the network provider
displayed on your Card. This may be Visa Inc.,
Mastercard International Incorporated, or any other
network provider.

Glossary
•“Access Check” means any check we send to you to
access credit from your Account. We may also refer
to an Access Check as a “convenience check” or a
“purchase check”.

•“Quick Cash” means cash that may be obtained in
$20 increments, up to any limit we may set, at the
time a purchase transaction is made using your Card at
participating Walmart-owned registers. Quick Cash
is not available if you are using Walmart Pay. Quick
Cash transactions will be treated as part of the
purchase Segment of your Account for the purpose
of calculating interest.

•“Account” means your Card Account with us.
•“Authorized User” means a person who may use
the Card, but is not responsible for the repayment
of the Account.

•“Segments” means the different parts of your Account
we may establish that are subject to unique APRs,
pricing, or other terms. We create these parts of your
Account for such things as your purchases, Balance
Transfers, Cash Advances and Special Transfers.
The sum of your Segment balances equals your total
Account balance.

•“Balance Transfer” means a Transfer posted to the
purchase Segment of your Account unless otherwise
described in your Truth-in-Lending Disclosures.
•“Billing Cycle” means the period of time reflected on
a Statement. This period may vary in length, but is
approximately 30 days. You will have a Billing Cycle
even if a Statement is not required. We will often specify
a Billing Cycle by the month in which its closing date
occurs. For example, a “March Billing Cycle” will have
a closing date in March. We may also refer to a Billing
Cycle as a “Billing Period”. If your Account balance has
charged off, we may switch to quarterly Billing Cycles for
your Account.

•“Special Transfer” means a Transfer posted to a
Segment of your Account that is not your purchase
Segment or Cash Advance Segment.
•“Statement” means a document showing important
Account information, including all transactions billed to
your Account during a Billing Cycle and information about
what you must pay. We may also refer to your Statement
as a “Periodic Statement” or a “Billing Statement”.

•“Card” means any Capital One credit card associated
with your Account. This includes all renewals and
substitutions. It also means any other access device for
your Account we give you that allows you to obtain credit,
including any Account number.

•“Transfers” means amounts transferred from other
accounts to this Account and includes Balance
Transfers and Special Transfers.
•“Truth-in-Lending Disclosures” means disclosures that
the federal Truth in Lending Act and Regulation Z
require for any Account. This includes your application
and solicitation disclosures, Account opening
disclosures, subsequent disclosures, Statements, and
change in terms notices.

•“Cash Advance” means a loan in cash or things we
consider cash equivalents, including wire transfers,
travelers’ checks, money orders, foreign currency,
lottery tickets, gaming chips, and wagers. We post
Cash Advances to the Cash Advance Segment of your
Account and not to your purchase Segment.
•“Fees” means charges imposed on your Account not
based on the Annual Percentage Rates.

© 2019 Capital One
Capital One is a federally registered service mark.
All rights reserved.
BR408251

M-128870

6

COF Customer Agreement 428

